   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



December 31, 2009

Report Number: A-07-09-02754

Mr. Michael Hales
Director
Division of Health Care Financing
Utah Department of Health
P.O. Box 143101
Salt Lake City, Utah 84114-3101

Dear Mr. Hales:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of the Reconciliation and Reporting of Medicaid
Non-Risk Contract Payments by the Utah Department of Health.” We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02754 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael Hales

HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF THE RECONCILIATION
  AND REPORTING OF MEDICAID
 NON-RISK CONTRACT PAYMENTS
   BY THE UTAH DEPARTMENT
          OF HEALTH




                       Daniel R. Levinson
                        Inspector General

                         December 2009
                         A-07-09-02754
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

As part of the implementation of their Medicaid programs, States may submit waiver requests to
CMS; these waivers, when approved, allow exceptions to certain requirements or limitations of
the Act. Two Medicaid waivers used by the State of Utah are Section 1915(b) freedom of choice
waivers and Section 1115 demonstration waivers.

In Utah, the Utah Department of Health, Division of Health Care Financing (State agency)
administers the Medicaid program. The State agency contracts with three managed care
organizations to provide Medicaid physical health services under waivers approved by CMS.
Two of the three contracts are nonrisk, and managed care organizations that enter into nonrisk
contracts with the State agency are federally defined as prepaid inpatient health plans. In
reporting year 2007 (August 1, 2006, through July 31, 2007), the State agency paid its two
nonrisk contractors approximately $177 million.

Federal requirements for nonrisk contracts allow a State agency to reimburse nonrisk contractors
based on payment arrangements other than those specified in the State plan payment rates.
However, the State agency must have a process in place to assure that the nonrisk contractor’s
total payments do not exceed what the State agency would have paid, on a fee-for-service (FFS)
basis, under the State plan. This amount is known as the upper payment limit (UPL) for a
nonrisk managed care contract. The UPL constitutes the maximum amount that is eligible for
Federal reimbursement, and the process whereby it is calculated and compared to the nonrisk
contractor’s payments is known as the UPL reconciliation. To obtain the assurance mentioned
above, the State agency must perform an annual UPL reconciliation and submit the results of that
reconciliation to CMS.

On a quarterly basis, the State agency reports its quarterly Medicaid expenditures to CMS on the
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64
report). Based on the CMS-64 report, CMS matches a portion of the State’s Medicaid
expenditures. The expenditures made under the Sections 1915(b) and 1115 demonstration
waivers are reported on separate CMS-64 reports in order for CMS to track the costs for each
waiver.

We performed this audit at the request of CMS.




                                                 i
OBJECTIVE

Our objective was to determine whether, pursuant to Federal requirements, the State agency
(a) adequately fulfilled the requirements of the UPL reconciliation for nonrisk managed care
contracts and did not exceed the UPL in State fiscal year (State FY) 2007; and (b) accurately
reported payments made under the nonrisk managed care contracts in State FY 2008.

SUMMARY OF FINDINGS

The State agency adequately fulfilled the requirements of the UPL reconciliation for nonrisk
managed care contracts and did not appear to exceed the UPL for reporting year 2007; however,
there were areas in which the State agency could improve the completeness, accuracy, and
transparency of the UPL reconciliation process. Moreover, for State FY 2008 the State agency
did not accurately report payments made under the nonrisk managed care contracts. Specifically:

      The State agency adequately fulfilled the requirements of the UPL reconciliation of the
       reporting year 2007 payments to the contractors. However, we identified areas in which
       the State agency could improve the completeness, accuracy, and transparency of the UPL
       reconciliation process:

           o The State agency’s UPL reconciliation was missing a payment to a contractor and
             included encounter records that should have been excluded. The State agency did
             not have adequate policies and procedures to ensure the completeness and
             accuracy of the reporting year 2007 encounter records used for the UPL
             reconciliation. As a result, the State agency’s UPL reconciliation was incomplete
             and inaccurate.

           o The State agency did not adequately document the manual and system procedures
             (to include alternative methods) it employed to calculate the UPL. The State
             agency did not put in place comprehensive policies and procedures to adequately
             document the assumptions used to determine the UPL amount and to identify how
             these assumptions affected the overall UPL reconciliation. As a result, CMS was
             unable to fully (a) assess the accuracy and completeness of the UPL amount,
             (b) completely understand all of the issues that prevented the State agency’s
             automated FFS payment system from accurately pricing a claim, (c) gauge the
             impact of these issues on the outcome of the UPL reconciliation, and (d) assess
             the cost and benefit of correcting these issues.

      In addition, the State agency did not accurately report payments made under the nonrisk
       managed care contracts in State FY 2008. Specifically, the State agency misclassified
       expenditures made under the approved waivers and reported on the separate CMS-64
       reports. The State agency had inadequate internal controls over the CMS-64 reporting
       process, which resulted in the inaccurate reporting of Medicaid expenditures. Although
       the State agency inaccurately reported payments, there was no monetary effect from the
       errors because the overall Medicaid expenditures equaled the total reported costs.




                                                ii
       However, assessments of cost effectiveness of, and future funding determinations for,
       these waivers could be based on inaccurate information if these errors are not corrected.

RECOMMENDATIONS

We recommend that the State agency:

          strengthen policies and procedures to perform UPL reconciliations pursuant to
           Federal requirements,

          strengthen policies and procedures that will ensure proper documentation of the
           reconciliation process to improve transparency of the UPL, by articulating the
           underlying assumptions used to determine the UPL and explaining how these
           assumptions affected the overall UPL reconciliation, and

          strengthen internal controls, to include the implementation of the internal controls
           outlined by CMS’s conditional extension of Utah’s 1915(b) waiver agreed to by the
           State agency on January 7, 2009.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
pointed out that it was “aware of several of the weaknesses in the data” for the State FY 2007
UPL reconciliation that it had submitted at CMS’s direction. The State agency also provided
information on corrective actions that it will undertake. Specifically, the State agency said that it
will perform a new reconciliation test for State FY 2007 to address the concerns found in the
audit. The State agency added that the new test will include only those claims paid in the State
FY, which will allow the results to be compared with information on the CMS-64 report. The
State agency also stated that it will provide documentation regarding system edits that were
modified, the justifications for the modifications, and all issues that prevented the Utah Medicaid
Management Information System from properly pricing a claim. Furthermore, the State agency
said that it is working with CMS to improve the reporting of expenditures on the CMS-64 report.

The State agency’s comments are included in their entirety as the Appendix.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicaid Program and Associated Waivers .........................................................1
              Managed Care Organizations................................................................................1
              Upper Payment Limit Reconciliation Process ......................................................2
              Cost Reporting ......................................................................................................2
              Prior Deficiencies Identified by Centers for Medicare & Medicaid Services ......2
              State Agency Improvements in Reporting Processes and Systems ......................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3
               Objective ...............................................................................................................3
               Scope.....................................................................................................................4
               Methodology .........................................................................................................4

FINDINGS AND RECOMMENDATIONS .............................................................................5

          NEED FOR IMPROVEMENTS IN THE UPPER PAYMENT LIMIT
            RECONCILIATION....................................................................................................6
               Federal Requirements for Nonrisk Managed Care Contracts ...............................6
               Reporting Year 2007 Reconciliation Results........................................................6
               Need for Improvement in the Completeness and Accuracy of the
                 Upper Payment Limit Reconciliation Process .................................................7
               Need for Additional Policies and Procedures .......................................................8

          INACCURATE REPORTING OF MEDICAID EXPENDITURES ...............................8
               Federal Requirements for CMS-64 Reporting......................................................9
               Inaccurate CMS-64 Reporting for State Fiscal Year 2008 ...................................9
               Inadequate Internal Controls and Effect on Accuracy of CMS-64 Reports .......10

          RECOMMENDATIONS................................................................................................10

          STATE AGENCY COMMENTS...................................................................................11

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                                 INTRODUCTION

BACKGROUND

Medicaid Program and Associated Waivers

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

As part of the implementation of their Medicaid programs, States may submit waiver requests to
CMS; these waivers, when approved, allow exceptions to certain requirements or limitations of
the Act. Two Medicaid waivers used by the State of Utah are Section 1915(b) freedom of choice
waivers and Section 1115 demonstration waivers. 1

Managed Care Organizations

In Utah, the Utah Department of Health, Division of Health Care Financing (State agency)
administers the Medicaid program. Approximately 89 percent of Utah’s 195,000 Medicaid
enrollees receive health care services through managed care. The State agency contracts with
three managed care organizations to provide the Medicaid physical health services provided
under the Section 1915(b) and Section 1115 waivers. These managed care plans operate in the
four most densely populated, urbanized counties in the State. Two of the three contracts are
nonrisk, and managed care organizations that enter into nonrisk contracts with the State agency
are federally defined as prepaid inpatient health plans. In reporting year 2007, 2 the State agency
paid its two nonrisk contractors approximately $177 million.

Effective at the start of State FY 2003 (July 1, 2002), two of the State agency’s three managed
care plan contracts changed from risk-based to nonrisk. Federal requirements for nonrisk
contracts allow a State agency to reimburse contractors administering nonrisk managed care
plans (contractor) based on payment arrangements other than those specified in the State plan
payment rates.




1
    As provided for in Titles XIX and XI of the Act, respectively.
2
 In order to explain the State agency’s administration of the Medicaid program, we must refer to two different time
periods used by the State agency. Each State fiscal year (State FY) ran from July 1 of one year to June 30 of the
next. However, the State agency used a different period, August 1 to July 31, for the 2007 UPL reconciliation
because it was trying to capture the claims that were paid to the providers by the nonrisk contractors in the State FY
instead of basing the expenditures on the date that the State agency paid the nonrisk contractors. For purposes of
this report, we will refer to this August 1—July 31 period as the reporting year to differentiate it from the State FY.


                                                             1
Upper Payment Limit Reconciliation Process

When using nonrisk contracts, the State agency must have a process in place to assure that the
contractor’s total payments do not exceed what the State agency would have paid, on a fee-for-
service (FFS) basis, under the State plan. This amount is known as the upper payment limit
(UPL) for a nonrisk managed care contract. The UPL constitutes the maximum amount that is
eligible for Federal reimbursement, and the process whereby it is calculated and compared to the
contractor’s payments is known as the UPL reconciliation. To obtain the assurance mentioned
above, the State agency must perform an annual UPL reconciliation and submit the results of that
reconciliation to CMS.

The State agency used the following process to perform the UPL reconciliation. The contractors
requested reimbursement for qualified payments to providers by submitting encounter data to the
State agency, which processed that data through the State agency’s two automated processing
systems, the Medicaid Managed Care System (MMCS) and the Utah Medicaid Management
Information System (MMIS). The MMCS approved the claims for payment, and MMIS’s task
was to determine the UPL. To complete the UPL reconciliation, the State agency compared the
actual costs with the UPL, and if the payments to the contractor exceeded the UPL, then the State
agency would refund the overpayment to CMS.

Cost Reporting

On a quarterly basis, the State agency reports its quarterly Medicaid expenditures to CMS on the
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64
report). Based on the CMS-64 report, CMS matches a portion of the State agency’s Medicaid
expenditures. The expenditures made under the Sections 1915(b) and 1115 demonstration
waivers are reported on separate CMS-64 reports in order for CMS to track the costs for each
waiver.

Prior Deficiencies Identified By Centers for Medicaid & Medicare Services

Deficiencies in Upper Payment Limit Reconciliation

In October 2004, CMS identified the State agency’s lack of compliance with the nonrisk contract
requirements. The State agency attempted to fulfill the requirements but experienced problems
with the completeness of its encounter data that made it extremely difficult to perform the UPL
reconciliation for State FYs 2003 through 2005. To address these difficulties, the State agency
implemented the MMCS in March 2005 to validate the encounters. Although the data was more
complete than before, it still did not contain enough detail to allow the MMIS to determine the
amount the State agency would have paid for each encounter on an FFS basis.

During and after a CMS on-site review of the Utah MMIS and MMCS in July 2007, CMS
worked with the State agency to make additional improvements to facilitate the UPL
reconciliation. These improvements involved (a) adding data fields to the encounter records,
(b) developing an automated process to link managed care cycle payment dates and warrant
information stored in the accounting system to encounter data records in MMCS, and



                                               2
(c) developing a centralized recordkeeping system. To test the sufficiency of these
enhancements, CMS directed the State agency to perform a UPL reconciliation of the most
recent State FY (that is, State FY 2007) to assess whether, going forward, the State agency could
fulfill the Federal requirements.

Deficiencies in Cost Reporting

CMS also identified CMS-64 cost reporting deficiencies during the July 2007 on-site review.
CMS found that the State agency could not accurately determine which waiver the nonrisk
claims were paid under, because the State agency’s automated processing systems did not record
the beneficiary’s eligibility status applicable at the date of service. CMS also found that for the
period reviewed, the State agency used estimates to allocate nonrisk contract payments made
under the waivers. CMS concluded that as a result of this inability to determine actual waiver
costs, the State agency was misclassifying payments on the separate CMS-64 reports (used to
report expenditures made under the CMS-approved waivers) and on the main (base) CMS-64
reports themselves. These discrepancies resulted in reporting estimated rather than actual
expenditures on the CMS-64 reports and, along with the system issues described earlier, resulted
in inaccurate cost reporting.

State Agency Improvements in Reporting Processes and Systems

In the first quarter of State FY 2008, the State agency began to address the reporting issues
identified by CMS. The State agency began to append the encounter record in MMCS with
eligibility and rate code fields as encounters were processed. The additional information enabled
the State agency to properly identify the beneficiary’s eligibility status and the applicable waiver
authority for each encounter paid through the nonrisk managed care plans.

Also, the State agency implemented a process that in part allowed the State agency to reconcile
nonrisk contract costs reported on the CMS-64 reports with payments to the contractors. In April
2008, the reconciliation process was further enhanced with a system change that allowed the
State agency to trace each individual claim paid to a contractor to the specific disbursement as
reflected in the State agency’s accounting system (which is called FINET).

The State agency also implemented improved procedures to (a) group claims by eligibility
groups and by categories of service codes and (b) identify more readily and accurately whether
or not a particular claim was associated with a CMS-approved waiver (thereby enhancing the
accuracy of the separate CMS-64 reports for expenditures associated with those waivers).

We performed this audit at the request of CMS.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether, pursuant to Federal requirements, the State agency




                                                 3
(a) adequately fulfilled the requirements of the UPL reconciliation for nonrisk managed care
contracts and did not exceed the UPL in State FY 2007; and (b) accurately reported payments
made under the nonrisk managed care contracts in State FY 2008.

Scope

The audit period for our review of the UPL reconciliation was August 1, 2006, to July 31, 2007.
The audit period for our review of the reporting accuracy was July 1, 2007, to June 30, 2008.
The Medicaid claims subject to review were paid to two contractors and totaled approximately
$177 million in reporting year 2007 and $176.7 million in State FY 2008.

The State agency provided us with the reporting year 2007 encounter data submitted by the
contractors and processed through MMCS. The State agency’s UPL reconciliation included
injectable claim reimbursements totaling approximately $600,000. 3 However, we excluded these
claims because the State agency paid them after reporting year 2007. In addition, the State
agency’s UPL reconciliation also included individual claims for capitated services totaling
approximately $800,000 that were paid after reporting year 2007, which we included because the
State agency was unable to separate these claims from the rest of the population.

We conducted our fieldwork at the State agency in Salt Lake City, Utah, from July to September
2008.

Methodology

To accomplish our objective, we:

        reviewed applicable Federal laws and regulations;

        interviewed CMS officials to obtain an understanding of their roles in the oversight of the
         Medicaid program, and to obtain additional CMS documentation pertaining to these
         programs;

        reviewed the nonrisk managed care contracts between the State agency and the
         contractors, as well as prior audits and reviews of the State agency’s management of the
         nonrisk managed care contracts;

        interviewed State agency officials to obtain an understanding of the State agency’s
         automated systems, its UPL reconciliation process, and the process for reporting the
         nonrisk contract costs on the CMS-64 reports;

        analyzed encounter data from the contractors as they were processed through the State
         agency’s automated systems;



3
 Injectable claims reimburse providers for the delivery of prescription medication. This type of claim cannot be
processed through MMCS.


                                                         4
      traced costs from the encounter data to the State FYs 2007 and 2008 CMS-64 reports and
       reconciled reported costs with FINET to verify the accuracy of the reports submitted to
       CMS; and

      provided our preliminary results and recommendations regarding the accuracy of the
       State FY 2008 CMS-64 reports to CMS national and regional officials on
       November 17, 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency adequately fulfilled the requirements of the UPL reconciliation for nonrisk
managed care contracts and did not appear to exceed the UPL for reporting year 2007; however,
there were areas in which the State agency could improve the completeness, accuracy, and
transparency of the UPL reconciliation process. Moreover, for State FY 2008 the State agency
did not accurately report payments made under the nonrisk managed care contracts. Specifically:

      The State agency adequately fulfilled the requirements of the UPL reconciliation of the
       reporting year 2007 payments to the contractors. However, we identified areas in which
       the State agency could improve the completeness, accuracy, and transparency of the UPL
       reconciliation process:

           o The State agency’s UPL reconciliation was missing a payment to a contractor and
             included encounter records that should have been excluded. The State agency did
             not have adequate policies and procedures to ensure the completeness and
             accuracy of the reporting year 2007 encounter records used for the UPL
             reconciliation. As a result, the State agency’s UPL reconciliation was incomplete
             and inaccurate.

           o The State agency did not adequately document the manual and system procedures
             (to include alternative methods) it employed to calculate the UPL. The State
             agency did not put in place comprehensive policies and procedures to adequately
             document the assumptions used to determine the UPL amount and to identify how
             these assumptions affected the overall UPL reconciliation. As a result, CMS was
             unable to fully (a) assess the accuracy and completeness of the UPL amount, (b)
             completely understand all of the issues that prevented the State agency’s
             automated FFS payment system from accurately pricing a claim, (c) gauge the
             impact of these issues on the outcome of the UPL reconciliation, and (d) assess
             the cost and benefit of correcting these issues.




                                               5
           In addition, the State agency did not accurately report payments made under the nonrisk
            managed care contracts in State FY 2008. Specifically, the State agency misclassified
            expenditures made under the approved waivers and reported on the separate CMS-64
            reports. The State agency had inadequate internal controls over the CMS-64 reporting
            process, which resulted in the inaccurate reporting of Medicaid expenditures. Although
            the State agency inaccurately reported payments, there was no monetary effect from the
            errors because the overall Medicaid expenditures equaled the total reported costs.
            However, assessments of cost effectiveness of, and future funding determinations for,
            these waivers could be based on inaccurate information if these errors are not corrected.

NEED FOR IMPROVEMENTS IN THE UPPER PAYMENT LIMIT
RECONCILIATION

The State agency adequately performed a UPL reconciliation of the reporting year 2007
payments to the contractors. However, we identified areas in which the State agency could
improve the completeness, accuracy, and transparency of the UPL reconciliation process.

Federal Requirements for Nonrisk Managed Care Contracts

Pursuant to 42 CFR § 447.362, under a nonrisk contract, Medicaid payments to the contractor
may not exceed what Medicaid would have paid, on an FFS basis, for the services actually
furnished to recipients.

Reporting Year 2007 Reconciliation Results

The State agency processed the claims through MMIS to determine the amounts that it would
have paid for the services on an FFS basis. The State agency’s reconciliation of the UPL for
reporting year 2007 showed that total expenditures of $177,877,868 were less than the UPL of
$182,801,365. Although the expenditures were still under the UPL, we calculated total
expenditures of $179,327,238 and a UPL of $182,762,097. The difference between the State
agency’s UPL reconciliation and our own calculations was due to claims that should have been
excluded from the analysis because they were either not valid or could not be processed. The
cumulative impact of these issues on the UPL reconciliation was to reduce the difference
between the actual cost of the nonrisk contracts and the UPL by approximately $1.49 million, as
shown in the following table.

                                     Per State Agency        Per OIG 4        Net Difference
             Actual Costs              $177,877,868         $179,327,238        $1,449,370
             UPL                         182,801,365         182,762,097             39,268
             Amount Under UPL             $4,923,497          $3,434,859        $1,488,638




4
    Office of Inspector General.


                                                     6
Need for Improvement in the Completeness and Accuracy of the Upper Payment Limit
Reconciliation Process

Generally, the State agency’s payments to the nonrisk contractors in reporting year 2007 did not
exceed the UPL. 5 However, we identified two areas in which the State agency could improve
the completeness and accuracy of the UPL reconciliation process. Specifically, the State agency
can (a) reconcile the total costs of the encounters in the population with the disbursement records
from the State agency’s accounting system (FINET) and (b) exclude encounters that were denied
by the contractors or that MMIS was unable to process.

Shortcomings in the UPL reconciliation process for reporting year 2007 included the following
issues:

        Originally, the State agency reported to CMS that the expenditures for the period totaled
         $171 million. However, we found that FINET showed total payments of approximately
         $177 million. The State agency determined that it missed the encounters for an
         approximately $6 million payment because it mistakenly used the wrong payment date in
         the query used to pull the encounters.

        We identified 85,450 claims that should have been excluded from the UPL reconciliation
         process.

             o The State agency included almost 80,000 claims that were originally denied by
               one of the contractors. In these cases, the contractor submitted the denied
               encounters to the State agency with a zero payment amount. Since the contractor
               did not pay these claims, they should have been excluded from the reconciliation
               process. Removing these claims from the UPL reconciliation would reduce the
               UPL by over $39,000.

             o In addition, we identified approximately 5,450 claims that MMIS could not
               process. State agency officials explained that MMIS could not determine the
               beneficiary’s eligibility status for these cases. Because these claims could not be
               processed, they should have been excluded from the reconciliation. Further,
               because most of these claims were voids, removing them from the UPL
               reconciliation increased actual expenditures by $1.45 million. 6

The State agency did not have policies and procedures to reconcile the expenditures with the
disbursement records. State agency officials told us that they believed that all of the encounters
submitted by the contractors in the period should have been included in the UPL reconciliation
5
 We could not make a UPL determination for six percent of the total payments because the State agency was unable
to determine an FFS price.
6
 Based on guidance from CMS, the State agency revised MMCS, beginning with July 2007 encounters, to capture
eligibility as of the initial processing date instead of the snapshot date. This change eliminated the problem of
linking encounters with eligibility information that might have changed since the encounter was initially processed.
All of the claims that MMIS could not process had dates of service that occurred prior to the State agency’s system
change.


                                                          7
and that they did not adequately consider the circumstances that should have resulted in the
exclusion of certain encounters. As a result, the State agency’s UPL reconciliation was
incomplete and inaccurate.

Need for Additional Policies and Procedures

The State agency experienced limitations that prevented MMIS from properly processing claims
associated with the reporting year 2007 encounter data. In an attempt to resolve these limitations
in MMIS and process all of the nonrisk claims, the State agency employed a variety of
alternative methods that included turning off system edits in MMIS and manually changing some
claim amounts determined by MMIS. However, the State agency did not adequately document
these alternative methods and thus could not specify all of the MMIS edits that had been
changed. The State agency told us that MMIS did not maintain a history of edit changes but that,
going forward, the State agency could start tracking future modifications used for the UPL
reconciliation. Consequently, it was not possible for us to fully measure the effect of these
alternative methods on the determination and accuracy of the UPL.

Moreover, the system edit changes did not resolve all of the issues that prevented MMIS from
properly processing a nonrisk contract claim. For over 960,000 claims that the State agency
processed in reporting year 2007 (for which it reimbursed the contractors approximately
$177 million), approximately 135,600 claims (over 14 percent) had exception codes (reflecting
errors in the claims data) and did not fully pass the MMIS system edits. Although the majority
of these 135,600 claims had exception codes that affected individual line items in each claim (as
opposed to the entire claim), MMIS reduced payments in approximately 53,300 claims and did
not determine a payment amount for approximately 27,600 claims. Depending on the type of
exception, the State agency made a determination to deny the claim or to manually set the price
to equal the amount the State agency paid. We determined that manually changing MMIS claim
amounts meant that approximately $10.8 million (6 percent) of the total $177 million paid to
contractors could not be processed for the UPL reconciliation.

The State agency disclosed one of the key conditions preventing MMIS from properly
processing claims, but the State agency did not put in place comprehensive policies and
procedures to document the assumptions used to determine the UPL amount and to identify how
these assumptions affected the overall UPL reconciliation. Consequently, CMS was unable to
fully (a) assess the accuracy and completeness of the UPL amount, (b) completely understand all
of the issues that prevented the State agency’s automated FFS payment system from accurately
pricing a claim, (c) gauge the impact of these issues on the outcome of the UPL reconciliation,
and (d) assess the cost and benefit of correcting these issues.

INACCURATE REPORTING OF MEDICAID EXPENDITURES

The State agency did not accurately report payments made under the nonrisk managed care
contracts in State FY 2008. Specifically, the State agency misclassified expenditures made
under the approved waivers and reported on the separate CMS-64 reports. The State agency had
inadequate internal controls over the CMS-64 reporting process, which resulted in the inaccurate
reporting of Medicaid expenditures. Although the State agency inaccurately reported payments,



                                                8
there was no monetary effect from the errors because the overall Medicaid expenditures equaled
the total reported costs. However, assessments of cost effectiveness of, and future funding
determinations for, these waivers could be based on inaccurate information if these errors are not
corrected.

Federal Requirements for CMS-64 Reporting

42 CFR § 430.30(c)(2) describes the CMS-64 report as the State’s accounting of actual recorded
expenditures and specifies that the disposition of Federal funds may not be reported on the basis
of estimates.

Inaccurate CMS-64 Reporting for State Fiscal Year 2008

The State agency did not accurately report payments made under the nonrisk managed care
contracts in State FY 2008. In State FY 2008, the State agency paid its two contractors
approximately $176.7 million. For this period, the State agency implemented changes and
improvements to resolve the deficiencies identified in the CMS on-site review mentioned earlier.
System enhancements facilitated the determination of the proper waiver for each paid claim. In
addition, the State agency created an automated process to roll up claim level detail into a
summary report that could readily be used to populate the CMS-64 reports. Furthermore, the
State agency reconciled the claim level detail with the FINET disbursement records.

Although the process was much improved, it was not thoroughly tested prior to the State FY
2008 CMS-64 report submissions. A reconciliation of the actual expenditures with the costs
reported on the State agency’s State FY 2008 CMS-64 reports revealed the following
inaccuracies 7 :

        The State agency reported all expenditures for family planning and sterilization services
         on the CMS-64 base report, even though the beneficiaries were eligible under either the
         Section 1915(b) or Section 1115 demonstration waivers. The expenditures for these
         beneficiaries should have been reported as applicable on the separate CMS-64 reports for
         the relevant waiver. Originally the State agency reported approximately $4.2 million on
         the base report for all family planning and sterilization services. However, the total
         family planning and sterilization costs should have totaled approximately $5.4 million
         and should have been allocated to the separate CMS-64 reports as follows: approximately
         $1.8 million on the base reports, approximately $2.0 million on the Section 1915(b)
         waiver reports, and approximately $1.6 million on the Section 1115 demonstration
         waiver reports.

        The State agency incorrectly reported, for State FY 2008, approximately $4.4 million in
         Section 1115 demonstration waiver payments that should have been reported in prior
         State FYs.



7
 These inaccuracies did not affect the UPL reconciliations, which are based on actual costs rather than reported
costs.


                                                          9
      The State agency incorrectly reported approximately $113 million of rural service costs
       on the separate CMS-64 reports for the Section 1915(b) waiver instead of on the base
       CMS-64 reports. Rural service costs are not covered under the Section 1915(b) waiver
       and should have been reported on the base CMS-64 reports. Accordingly, the State
       agency should have reported total expenditures of approximately $353 million under the
       Section 1915(b) waiver, rather than the approximately $466 million as originally
       reported.

There was no monetary effect from these errors because the overall Medicaid expenditures
equaled the total reported costs. However, assessments of cost effectiveness of, and future
funding determinations for, these waivers could be based on inaccurate information if these
errors are not corrected.

Inadequate Internal Controls and Effect on Accuracy of CMS-64 Reports

The State agency did not detect the inaccurate reporting of Medicaid expenditures in its CMS-64
reports because it had inadequate internal controls over the reporting process. Specifically, the
State agency did not have a way of validating the automated process used to summarize claim
level information and to independently review the costs prior to submission of the CMS-64
reports.

Consequently, assessments of cost effectiveness of, and future funding determinations for, these
waivers could be based on inaccurate information.

Prior to the conclusion of our audit, we communicated our preliminary findings and
recommendations to central office and regional CMS officials. CMS and the State agency
agreed to address our recommendation associated with this finding (that is, our third
recommendation) in the provisions of a conditional temporary extension of the Section 1915(b)
waiver granted by CMS and signed by the State agency on January 7, 2009.

RECOMMENDATIONS

We recommend that the State agency:

          strengthen policies and procedures to perform UPL reconciliations pursuant to
           Federal requirements;

          strengthen policies and procedures that will ensure proper documentation of the
           reconciliation process to improve transparency of the UPL, by articulating the
           underlying assumptions used to determine the UPL and explaining how these
           assumptions affected the overall UPL reconciliation, and

          strengthen internal controls, to include the implementation of the internal controls
           outlined by CMS’s conditional extension of Utah’s 1915(b) waiver agreed to by the
           State agency on January 7, 2009.



                                               10
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
pointed out that it was “aware of several of the weaknesses in the data” for the State FY 2007
UPL reconciliation that it had submitted at CMS’s direction. According to the State agency,
CMS requested this reconciliation “despite warnings from the State” that performing this
reconciliation “out of sequence would require the State to make several assumptions” about
adjustments of prior-year claims, assumptions that would affect the accuracy of the data. The
State agency added that it regarded the UPL reconciliation information that it provided to CMS
as “preliminary” and that it “fully intends to release a final version once the analysis of prior
years has been completed to the satisfaction of both CMS and the State.”

The State agency also provided information on corrective actions that it will undertake.
Specifically, the State agency said that it will perform a new reconciliation test for State FY 2007
to address the concerns found in the audit. The State agency added that the new test will include
only those claims paid in the State FY, which will allow the results to be compared with
information on the CMS-64 report. The State agency also stated that it will provide
documentation regarding system edits that were modified, the justifications for the
modifications, and all issues that prevented MMIS from properly pricing a claim. Furthermore,
the State agency said that it is working with CMS to improve the reporting of expenditures on
the CMS-64 report.

The State agency’s comments are included in their entirety as the Appendix.




                                                11
APPENDIX
                                                                                                                        Page 1 of2


                                  APPENDIX: AUDITEE COMMENTS 



              .."             Uta h Depa rtment of Il ealt h


      .'
    ·,··'I)'
    ·~
        .-
                                        Direc to r 's Office
          ..	. ­"
                ~
                              [l(I'C Ul ive
                              O'...dN S _.II , '-'.D
                              t.".,,~ 0,""10<
         ",. •"
                             " RlCh,,,d Mellon. Dr. P.H
                              0.1"""0.""",.
  Siale of Utah               "' I ~ K""""'"
                              O<pulyO""'''''


       "'-­
JON M . HU'lTS MAN.1J!.
                              lIulth Care fin."tinG
                              M",ha<1 T un..
  G" RY R HEIUI ERT
  u..",_G<>w__                D,,,-,_[)m<IO<'




               December J 5, 2009


               Department of Health and Human Services 

               Office of Inspector General 

               Office of Audit Services 

               Attention: Patrick J. Cogley 

               Regional Inspector General for Audit Services 

               601 Eas! 12'" Strt'eL Room 0429 

               Kansas City, Missowi 64106 


               RE: Report Number: A-07-09-02754 Review of the Reconciliation and Reporting of
               Medicaid Non-Risk Contract Payments by the Utah Department of Health for State Fiscal
                Year 2007.

                Dear Mr. Cogley:

               We have received your draft report and agree with the report and recommendations for
               Ihe most part. There are a few specific points that warrant furthe r discussion. [will
               address each recommendation individually:

                      • 	 st rengthen policies and procedures to perform UPL reconciliations pursuant to
                          Fcdernl requirements:

                          CMS requested thai the State perform an upper limit lest for Stlte Fiscal Year
                          2007 (SFY 2(07) despi te warnings from the State that running this test out of
                          sequence would require the State to make severnl assumptions regarding claims
                          wltich adjusted paid claims from previous years. The State completed this
                          analysis on a preliminary basis and fully intends to release a final version once the
                          analysis of prior years has been completed to the satisfaction ofbolh CMS and tl1e
                          State. As 3 reSlllt, tl1e State submitted the report aware of several of tile
                          weaknesses in the data. That being said. the State agrees and will release an
                          updated version of the test for SFY 2007 wltich addresses the concerns found in
                          this audit




 ---                                                       2n _     1460 w... . S." Lo~< e,'Y. LIT 

                                            M.. t'OI/"j';'~" P.O So>. I ~ )IDI . 5 . ~ Lo~ . cO\)'. LIT 8-<11.·)101 

                                        Tol.pIIon< (11(11) SJS~06 ' "",..m,l, {SOl) SlI·6099 . ...... _,~ _ ...... 

                                                                                                   Page 2 of2




Page 2 - Mr. Cogley


       11•.: St~t<: originnlly pcrfonncd this lest based on State Fiscal YeM which nllls
       apprQ :d matd y from luly IS'Io through luly 14'" Ihe nc;,.'1 year becau1>c it captures
       cxpcn~cs    on an accrual hasis. When the r.::vised n:rsion is rck3Scd. it wi ll 11.: run
       from July 0 I'" through June 30t~. This will allow the resulls 10 be directl)'
       comparable \0 infommtion reponed o nlhc C}"'IS 64l1'hich is nln on II cash basis
       and should eliminate Ihe confusion rl!garding which contractor payments should
       :l11d sho uld nO! be included in the lest.

   • 	 stre ngthe n policies aud proccdur.:s Ihat will ensure proper docllmentation of the
       rccondlimion process 10 improv.: tr3nsparency orthe U l'[~ by anicu]31ing th e
       underlying aSSllmptions used [0 detcnninc the UPL and cxpbining how these
       assllmption~   an'cctcd the ovcrall UPL rcconcililllion

       111e State ~grc.;:s with this recoml1lcndation and will pro\·ide documcntation
       regarding syst.: m ed its that w~r.: modified and justifications as to th~ reasoning
       behind cach modifi cation and all issues that prel'cnted r-.IMIS from properly
       pricing cl;lims.

   • 	 str.:: ngthen intcnml contro ls. to include the implementation or lh e intcmal contro1$
       Ollllincd by ell·IS·s conditional extension of Utah's 1915(b) waiver agreed \ 0 by
       th e 81me agency on January 7. 2009.

       Th e St..1te agrees with thi s rccornrnendati on and has bee n working wi th ClI·IS
       regional o ni ee to improve the reporting of expenditures on the Cl\·IS 64 report.

If you h3\'~ any questions regarding this rcsponsc. plcase contact Eric Grant at (80 1) 538·
6428 or "i~ email al egranttff utah.go\"

Sincerely.



IDlakc Andersonl
Assistant Dil'isioo Director
